No. 20-138

In the Supreme Court of the United States
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
et al., Petitioners,
v.
SIERRA CLUB, et al., Respondents.
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
et al., Petitioners,
v.
STATES OF CALIFORNIA AND NEW MEXICO, Respondents.
ON WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNOPPOSED JOINT MOTION OF RESPONDENTS
FOR DIVIDED ARGUMENT TIME

1
Pursuant to Supreme Court Rules 21 and 28.4, respondents respectfully
move for divided oral argument time. This case arises from two different
judgments of the United States Court of Appeals for the Ninth Circuit: one
involving an action brought by respondents the States of California and New
Mexico, and the other involving an action brought by respondents the Sierra
Club and the Southern Border Communities Coalition.

Respondents

respectfully request that the time at oral argument be divided equally between
the two sets of respondents, with fifteen minutes allotted to the California
respondents and fifteen minutes to the Sierra Club respondents. This Court
has regularly divided argument time in circumstances similar to those here,
which involve both sovereign governments and private parties on the same side
of the case. Counsel for petitioners has informed us that petitioners consent to
respondents’ request.
STATEMENT
This case involves two different challenges to petitioners’ transfer and use
of funds—that Congress appropriated for other purposes—to finance
construction of physical barriers on the southern border of the United States.
In one of the challenges (California), respondents the States of California and
New Mexico (along with other States that are not parties to the present
proceeding before this Court) brought suit alleging, among other things, that
petitioners’ actions violated Section 8005 of the Department of Defense
Appropriations Act of 2019 and the Appropriations Clause and were ultra vires.

2
In the second challenge (Sierra Club), respondents the Sierra Club and the
Southern Border Communities Coalition alleged, among other things, that
petitioners violated the Consolidated Appropriations Act of 2019 and the
Appropriations Clause and were ultra vires.
The district court entered partial final judgments in both California and
Sierra Club. Pet. App. 8a-9a, 87a-88a. In California, the district court granted
in part the States’ motion for partial summary judgment and issued a
declaration that petitioners’ transfers of funds were unlawful. Id. at 87a, 195a.
It denied the States’ request for injunctive relief in light of the injunction the
court issued in Sierra Club. Id. at 200a. In Sierra Club, the district court
granted in part the organizations’ motion for partial summary judgment and
issued a declaratory judgment and a permanent injunction barring petitioners
from taking action to construct border barriers in specified areas using
improperly transferred funds. Id. at 187a-188a.
The court of appeals affirmed in both cases and entered two different
judgments.

In California, the court held that the States had Article III

standing, Pet. App. 88a-99a; that the States could challenge petitioners’
transfers under the Administrative Procedure Act, id. at 100a-106a; and that
Section 8005 did not authorize the transfers, id. at 106a-118a. The court did
not address the States’ alternative claims that petitioners’ transfers were ultra
vires and unconstitutional. Id. at 100a n.12, 119a.

3
In Sierra Club, the court of appeals issued a separate opinion in which it
held that the organizations had established standing, Pet. App. 10a-16a;
reaffirmed its conclusion in California that Section 8005 did not authorize
petitioners’ transfers, id. at 16a-17a; and concluded that petitioners’ transfers
violated the Appropriations Clause, id. at 17a-18a. It also held that the Sierra
Club respondents had both a constitutional and an equitable ultra vires cause
of action. Id. at 18a-30a.
Petitioners filed a single petition for a writ of certiorari seeking review of
both judgments of the court of appeals, reasoning that the “‘judgments
. . . sought to be reviewed’ are from ‘the same court and involve identical or
closely related questions.’”

Pet. 1 (quoting Sup. Ct. R. 12.4) (ellipses in

petition). This Court granted the petition. ___ S. Ct. __, 2020 WL 6121565
(Oct. 19, 2020) (mem.). The California and Sierra Club respondents have each
filed separate briefs on the merits arguing in support of affirmance of the
judgments entered in their respective cases below.
ARGUMENT
This case involves the important question whether petitioners violated
federal law in transferring and spending billions of dollars to construct
physical barriers along the southern border of the United States that Congress
had appropriated for other purposes. It also presents the question whether
respondents have statutory or equitable causes of action to pursue their
challenges.

4
Respondents in the California and Sierra Club cases have distinct
perspectives and arguments on those questions.

Among other things,

respondents in the two cases are suffering distinct harms from petitioners’
conduct. The Executive took unilateral action to transfer funds to construct a
border wall within the sovereign territory of respondents California and New
Mexico. That construction harms species within the two States and interferes
with the States’ sovereign interests in enforcing their environmental laws
within their jurisdictions. Respondents in Sierra Club are organizations whose
members own nearby property and regularly use the lands designated for
barrier construction.

That construction injures the property interests of

members of the Sierra Club respondents as well as those members’ interests
in studying, conserving, fishing, hiking, and otherwise using protected lands.
In addition, the decisions below addressed different issues and claims. In
California, the court of appeals held that the States were proper parties to
bring an APA claim and that petitioners’ transfers violated Section 8005 of the
Defense Appropriations Act. The court did not reach the States’ alternative
claims that petitioners’ conduct was ultra vires and unconstitutional. In Sierra
Club, the court of appeals held that petitioners’ transfers violated the
Constitution; and it concluded that the organizations could pursue equitable
claims to challenge petitioners’ actions. Although both sets of respondents
have briefed both their respective APA and equitable claims before this Court,
the California respondents have focused their brief on the APA claim on which

5
they prevailed below, and the Sierra Club respondents have focused their brief
on the equitable claim on which they prevailed.
Dividing argument time as proposed will ensure that each set of
respondents may fully present their distinct interests and that the Court will
receive the benefit of respondents’ distinct perspectives and arguments. This
is particularly true in the circumstances of this case, where one set of
respondents includes sovereign governments with unique interests that
private parties cannot adequately represent. This Court has regularly divided
argument when governmental and private parties appear on the same side of
the case. See, e.g., Trump v. New York, __ S. Ct. __, 2020 WL 6811251 (Nov. 20,
2020) (mem.); Fulton v. City of Philadelphia, 141 S. Ct. 230 (2020) (mem.);
Dep’t of Homeland Security v. Regents of the Univ. of California, 140 S. Ct. 398
(2019) (mem.); Dep’t of Commerce v. New York, 139 S. Ct. 1543 (2019) (mem.);
Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Comm’n, 138 S. Ct. 466
(2017) (mem.).
Counsel for petitioners has informed us that petitioners consent to
respondents’ request.

6
CONCLUSION
The Court should grant respondents’ joint motion and divide argument
time equally between the California respondents and the Sierra Club
respondents.
Respectfully submitted,

/s/ Aimee Feinberg_________

/s/ Dror Ladin__________

Aimee Feinberg
Deputy Solicitor General
California Department of Justice
1300 I Street
Sacramento, CA 95814
(916) 210-6003
Aimee.Feinberg@doj.ca.gov

Dror Ladin
American Civil Liberties Union
Foundation
125 Broad Street, 18th Floor
New York, NY 10004
(212) 549-2500
dladin@aclu.org

Counsel of Record for the State
Respondents

Counsel of Record for the Sierra
Club Respondents

January 19, 2021

